 Criminal
 I nvestigative
 Policy &
 Oversight
                     Evaluation of
  DoD Correctional Facility Compliance with Military Sex
          Offender Notification Requirements
Report Number CIPO2002S003                       June 26, 2002




              Office of the Inspector General
                  Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General, DoD, home page
  at http://www.dodig.osd.mil/dcis/cipo/evals.htm, or contact Mr. John Perryman, Project Manager,
  at (703) 604-8765 (DSN 664-8765).

  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Audit Followup and Technical
  Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and requests
  can also be mailed to:

                           OAIG-AUD (ATTN: AFTS Audit Suggestions)
                             Inspector General, Department of Defense
                                400 Army Navy Drive (Room 801)
                                    Arlington, VA 22202-4704

  Defense Hotline
  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
  sending an electronic message to Hotline@dodig.osd.mil; or by writing to the Defense Hotline,
  The Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller is fully
  protected.

Acronyms
AFI                   Air Force Instruction
AR                    Army regulation
BUPERS                Bureau of Naval Personnel
CJSA                  The Departments of Commerce, Justice and State, the Judiciary, and Related
                         Agencies Appropriations Act of 1998
DoD                   Department of Defense
DoDD                  Department of Defense Directive
DoDI                  Department of Defense Instruction
DUSD(PI)              Deputy Under Secretary of defense (Program Integration)
HQ AFSFC              Headquarters, Air Force Security Forces Center
HQDA                  Headquarters, Department of the Army
IG DoD                Inspector General, Department of Defense
MAJCOM                Major Command
MARADMIN              Marine Administrative
NAVADMIN              Navy Administrative
NAVPERSCOM            Navy Personnel Command
NCIS                  Naval Criminal Investigative Service
R.C.M.                Rules for Courts-Martial
SECNAV                Secretary of the Navy
SJA                   Staff Judge Advocate
TAV                   Technical Assistance Visit
USD(P&R)              Under Secretary of Defense (Personnel and Readiness)
VWPA                  Victim and Witness Protection Act of 1982
                               INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704
                                                                           ~26m

MEMORANDUM FOR UNDER SECRETARYOF DEFENSE(pERSONNEL
                  READINESS)
               ASSISTANT SECRETARYOF THE ARMY (MANPOWER
                 AND RESERVEAFFAIRS)
               ASSISTANT SECRETARYOF THE NAVY (MANPOWER
                 AND RESERVEAFFAIRS)
               ASSISTANT SECRETARYOF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBffiCT:      EvaluationofDoD CorrectionalFacility Compliancewith Military Sex
               OffenderNotification Requirements(ReportNumber CIPO2002S003)

        This report is provided for your review and comment. Your commentson the
draft report were consideredin preparingthe final report and are addressedin detail in the
final report. Your specificcommentsare alsoincludedin the final report asAppendix K.
We requestyour commentson the final reportwithin 30 days.

       For the reasonsdiscussedin the fmal report,we did not agreewith the Army's
responseto recommendationA.5, with the Air Force'sresponsesto recommendations
A.2. and B.2., and with the Navy's responseto A.2. The Servicesshouldreconsidertheir
positionson theserecommendations     in commentingon the final report. We requestyour
prompt action on our recommendations.

        Sendyour commentsto the Office of the Deputy AssistantInspectorGeneralfor
 Criminal InvestigativePolicy and Oversight,400 Anny Navy Drive, Room 944,
 Arlington, Virginia, 22202-4704. Shouldyou havequestions,pleasecontactMr. John
Perryman,ProjectManager,at (703) 604-8765(DSN 664-8765)or
j perryman@dodig.osdmil.
      We appreciatethe courtesiesextendedto our evaluationstaff throughoutthis
evaluation. The evaluationteammembersarelisted insidethe back cover. See
Appendix J for the report distribution.


                             QLt CharlesW. Bearda11
                          Deputy AssistantInspectorGenera!
                      Criminal InvestigativePolicy and 0 versight
                          EVALUATION OF
            DOD CORRECTIONALFACILITYCOMPLIANCEWITH
          MILITARYSEX OFFENDER NOTIFICATION REQUIREMENTS

                                        TABLE OF CONTENTS
Executive Summary............................................................................................................. i
Part I - Introduction..............................................................................................................1
   Background .....................................................................................................................1
         Reason for Evaluation .............................................................................................2
   Evaluation Objectives, Scope and Methodology ............................................................3
Part II – Evaluation Results .................................................................................................5
   Sex Offender Notification ...............................................................................................5
         Introduction .............................................................................................................5
         DoD Guidance.........................................................................................................5
         Service Policy..........................................................................................................7
         Notifications ............................................................................................................8
         Acknowledgement Documentation.........................................................................9
         Notification Timeliness ...........................................................................................9
         Verification Systems .............................................................................................11
         Training .................................................................................................................11
         Management Oversight .........................................................................................11
         Facility Operating Instructions..............................................................................12
         Conclusions ...........................................................................................................12
         Recommendations, Management Comments and Evaluation Response ..............13
   Victim and Witness Notification...................................................................................20
         DoD Guidance.......................................................................................................20
         Service Guidance ..................................................................................................20
         DD Form 2704 ......................................................................................................20
         Notifications ..........................................................................................................22
         Offenders Still Confined .......................................................................................23
         Program Reporting ................................................................................................23
         Victim/Witness Personal Data ..............................................................................23
         Recommendations, Management Comments and Evaluation Response ..............24

Appendix A - Background on Federal Sex Offender Registration
Appendix B - Conviction Offenses Under the Uniform Code of Military Justice
Appendix C - Sex Offender Notification Process at Correctional Facilities
Appendix D - DoD and Service Policy on Sex Offender Notifications
Appendix E - DoD and Service Policy on Notifications Concerning Changes in Inmate
             Status
Appendix F - Victim and Witness Assistance Process at Correctional Facilities
Appendix G - DD Form 2704, Victim/Witness Certification and Election Concerning
             Inmate Status
Appendix H - Organizations Visited or Contacted
Appendix I - Memoranda to Military Department Judge Advocates General
Appendix J - Report Distribution
Appendix K - Management Comments
                           Office of the Inspector General, DoD
Report No. CIPO2002S003                                                                 June 26, 2002

                         EVALUATION OF
          DOD CORRECTIONAL FACILITY COMPLIANCE WITH
        MILITARY SEX OFFENDER NOTIFICATION REQUIREMENTS

                                   Executive Summary

Introduction. In 1994, the Congress enacted the Jacob Wetterling Crimes Against
Children and Sexually Violent Offender Registration Act (the Wetterling Act)1 requiring
certain sex offender registrations and notifications to State and local law enforcement
officials in the State where the sex offender resides, is employed, carries on a vocation,
or is a student. (See Appendix A for background information.) The Departments of
Commerce, Justice and State, the Judiciary, and Related Agencies Appropriations Act
of 1998 (CJSA)2 included military sex offenders under the Wetterling Act coverage and
required notifications beginning 1 year after enactment. In addition, under the Victim
and Witness Protection Act of 1982 (VWPA),3 when an offender is sentenced to
confinement, the victim and certain witnesses of the crime are entitled to information
concerning the confinement process and changes in confinement status. The custodial
agency must provide each victim with general information regarding the corrections
process, including information about work release, furlough, probation, and eligibility
for each. After trial, and at the request of the victim or witness, the custodial official
responsible for the actions must notify each requesting victim and witness, at the
earliest possible date, of (a) the date on which the offender will be eligible for parole
and any scheduled release hearing, (b) any escape, work release, furlough, or other
form of release from custody, and (c) death of the offender while in custody.4

Objectives. Our primary objective for this evaluation was to determine whether the
Department of Defense (DoD) satisfies its notification requirements for military sex
offenders, including whether DoD and/or individual Service:

    •    regulatory guidance adequately address the legal requirement to notify State and
         local law enforcement and registration officials when a convicted military sex
         offender is released from confinement or is convicted but not confined;

    •    processes are effective in notifying State and local authorities when a convicted
         military sex offender will reside in their jurisdiction; and

    •    processes are effective for notifying victims and witnesses regarding convicted
         military sex offenders.
1
    Pub. L. 103-322, Title XVII, § 170101, 108 Stat. 2038, codified, as amended at 42 U.S.C. §14071.
2
    Pub. L. 105-119, Title I, §115(a)(8(C)(i), 111 Stat. 2466.
3
    Pub. L. 97-291, 96 Stat. 1248, codified, as amended, at various sections of Title 18.
4
    42 U.S.C. §10607(c)(5).


                                                    i
We announced our evaluation on July 26, 2001, and conducted our fieldwork during
August through December 2001. The organizations/activities that we visited or
contacted during the evaluation are listed in Appendix H.

Results. DoD published guidance providing for sex offender notifications in
accordance with statutory requirements. The Services, however, did not fully
implement the guidance and generally do not meet the notification requirements. In
addition, military confinement facilities frequently do not receive documentation
alerting them to victim and witness notification requirements, and they do not always
satisfy the requirements even when they receive the documentation. As a result, some
victims and witnesses did not receive notifications from military confinement facilities
when an inmate was released from confinement.

Summary of Recommendations. We recommend that the Military Departments revise
and reissue their policies on military sex offender notifications, ensuring the policies
are consistent with DoD policy and specifically addressing notification requirements
for:

   •   military sex offenders who are convicted by courts-martial and not sentenced to
       confinement;

   •   military offenders with prior sex offender convictions who are currently being
       released from confinement for non-covered offenses; and

   •   military sex offenders convicted outside the United States, and either confined
       outside the United States or not confined as a result of the conviction.

We also recommend that the Military Departments:

   •   establish a time requirement and responsibility for completing notifications
       involving military sex offenders convicted by courts-martial, but not sentenced
       to confinement;

   •   adopt systems, with appropriate management oversight mechanisms, to track
       their sex offender notifications and ensure compliance with Federal laws
       requiring notifications for military sex offenders;

   •   revise their current Reports of the Results of Trial to specifically indicate
       whether sex offender notifications are required; and

   •   complete statutorily required notifications for all convicted military sex
       offenders released from confinement or sentenced to other than confinement on
       or after November 25, 1998, where notifications have not yet been completed.

We further recommend the Under Secretary of Defense (Personnel and Readiness)
(USD(P&R)), in coordination with the Office of the General Counsel, DoD, issue
guidance on whether a person sentenced by a Summary Court-Martial for a covered
offense requires sex offender notifications.

With respect to victim and witness notification, we recommend that the Military
Departments take action to ensure that military confinement facilities receive a
DD Form 2704, “Victim/Witness Certification and Election Concerning Inmate
Status,” for each adjudged inmate entering the confinement facility. Requirements
should include:

                                             ii
   •   routine confinement facility reporting that identifies (by name and confinement
       date) those inmates who were received without a DD Form 2704; and

   •   procedures for confinement facilities to receive missing DD Forms 2704
       immediately after reporting a missing form.

Finally, we recommend that the Air Force revise its current policies and procedures to
require (a) confinement facilities to retain victim and witness data both during and after
inmate confinement, and (b) restrict victim and witness data access to individuals with a
strict need-to-know.

Management Comments. On March 27, 2001, we issued this report in draft form for
management comments. Between April 19 and June 17, 2002, we received comments
from USD(P&R) and each Military Department. Generally, they all concurred with the
report. In response to our recommendations, USD(P&R) agreed to revise DoD policy
making it clear that covered sex offenses arise from general and special, not summary,
courts-marital. The Services all agreed to issue revised policy that complies with DoD
criteria and specifically addresses military sex offenders who are (1) convicted but not
confined; (2) being released from confinement for a non-covered offense, but have
prior sex offender convictions; and (3) convicted at courts-martial outside the United
States. They also agreed that they should have time requirements for notifications
when a sex offender is convicted and not confined. The Navy advised that it already
requires the Naval Criminal Investigative Service (NCIS) to complete these notifications
within 15 days. The Air Force, on the other hand, advised that it would require the Air
Force Security Police to complete these notifications within 24 hours. Neither the
Navy nor the Air Force, however, proposed a time requirement for their legal offices to
forward the information required to initiate the notifications. Without these time
requirements, time requirements for the actual notifications are not particularly
meaningful. Furthermore, we believe the 15 days allotted for NCIS to complete the
Navy notifications is excessive, given the sense of urgency generally involved in the
sex offender notification program.

The Services also agreed to adopt management oversight mechanisms to track sex
offender notifications, and to revise their Reports of Results of Trial to specify whether
sex offender notifications are required. They also agreed to initiate actions to satisfy
sex offender notifications that they have not yet completed and that were required after
the statute became effective. The Army, however, will only make “good-faith” efforts
based on the last known or reported address for the sex offender who is no longer under
military jurisdiction. This approach may not satisfy the statutory notification
requirements. Further, we do not believe that locating and notifying sex offenders no
longer under military service jurisdiction will be so difficult as to warrant excusing the
statutory requirements. The Navy and Air Force will encounter the same situations and
intend to meet their notification requirements.

In commenting on our recommendations concerning the victim and witness program,
the Services agreed to adopt oversight regulatory practices to ensure that a
DD Form 2704 accompanies each offender sent to a military confinement facility.
Finally, in response to our concerns about security of records identifying victims and
witnesses, the Air Force responded that its current regulatory guidance addresses this
matter. As discussed in the report text, we do not agree that the current Air Force
policy is adequate.




                                            iii
EVALUATION OF DOD CORRECTIONAL FACILITY COMPLIANCE WITH
    MILITARY SEX OFFENDER NOTIFICATION REQUIREMENTS

                                 Part I - Introduction
Background
        The Jacob Wetterling Crimes Against Children and Sexually Violent Offender
Registration Act required certain sex offender registrations and notifications to State and
local law enforcement officials. The Department of Commerce, Justice and State, the
Judiciary, and Related Agencies Appropriations Act of 1998 included military sex
offenders under the Wetterling Act coverage and required notifications beginning one
year after enactment. Implementing the Wetterling Act within DoD does not require
registration of sex offenders, but does require DoD notifications concerning such
offenders. Specifically, implementation of the Wetterling Act requires four separate DoD
notifications when an offender is convicted of certain sex crimes, hereafter referred to as
a covered offense. (Appendix B identifies the relevant offenses under the Uniform Code
of Military Justice.) DoD must notify the offender of the individual’s obligation to
register as a sex offender; and DoD must send notifications to alert three civil law
enforcement officials in the area where the offender will reside after the conviction.

        In addition to the Wetterling Act requirements, the Victim and Witness Protection
Act of 1982 provides that when an offender is sentenced to confinement, the victim(s)
and certain witnesses of the crime are entitled to information concerning the confinement
process and changes in confinement status. The custodial agency must provide each
victim with general information regarding the corrections process, including information
about work release, furlough, probation, and eligibility for each.5 After trial, and at the
request of the victim or witness, the custodial official responsible for the actions must
notify each eligible victim or witness, at the earliest possible date, (a) of the date on
which the offender will be eligible for parole and any scheduled release hearing; (b) any
escape, work release, furlough, or other form of release from custody; (c) any movement
between confinement facilities; and (d) death of the offender while in custody.6

       The Attorney General’s Guidelines for Victim and Witness Assistance 20007
include the following perspective:
             The first Federal victims’ rights legislation was the Victim and Witness
             Protection Act of 1982 (VWPA). Congress amended and expanded upon the
             provisions of the 1982 Act in subsequent legislation, primarily the Victims of


5
    42 U.S.C. §10607(c)(8). In the military, the Trial Counsel or designee performs this function in
    accordance with DoD Instruction 1030.2, “Victim and Witness Procedures,” December 23, 1994.
6
    42 U.S.C. §10607(c)(5).
7
    U.S. Department of Justice, Office of the Attorney General, Attorney General Guidelines for Victim
    and Witness Assistance, 2000, pp 3-4.


                                                    1
              Crime Act of 1984,8 the Victims Rights and Restitution Act of 1990,9 the Violent
              Crime Control and Law Enforcement Act of 1994,10 the Antiterrorism and
              Effective Death Penalty Act of 1996,11 and the Victim Rights Clarification Act of
              1997.12 In the VWPA, Congress made findings about the criminal justice
              system’s treatment of crime victims. Congress recognized that without the
              cooperation of victims and witnesses, the criminal justice system would cease to
              function. Yet, often those individuals were either ignored by the system or
              simply used as “tools” to identify and punish offenders. Congress found that all
              too often a victim suffers additional hardship as a result of contact with the
              system. The VWPA was enacted “to enhance and protect the necessary role of
              crime victims and witnesses in the criminal justice process; to ensure that the
              Federal Government does all that is possible within limits of available resources
              to assist victims and witnesses of crime without infringing on the constitutional
              rights of defendants; and, to provide a model for legislation for State and local
              governments.” Also, in the VWPA Congress instructed the Attorney General to
              develop and implement guidelines for the Department of Justice consistent with
              the purposes of the Act. Congress set forth the objectives of the guidelines,
              which include the provision of services to victims; notification about protection,
              services, and major case events; consultation with the Government attorney; a
              separate waiting area at court; the return of property; notification of employers;
              and training for law enforcement and others. Congress also instructed the
              Attorney General to assure that all Federal law enforcement agencies outside the
              Department of Justice adopt guidelines consistent with the purposes of the
              VWPA (see 18 U.S.C. §1512, Historical and Statutory Notes, Federal
              Guidelines for Treatment of Crime Victims and Witnesses in the Criminal
              Justice System). In conformance with the Congressional directive, the Attorney
              General promulgated the Attorney General Guidelines for Victim and Witness
              Assistance (AG Guidelines). Periodically, the AG Guidelines have been revised
              to incorporate new legislative provisions.

              (Statutory citations added.)

          Reason for Evaluation
        In August 2000, a detective with the San Diego, California, police department
complained to the IG DoD that a Navy correctional facility in California was not
complying with provisions in the CJSA requiring notifications when a military sex
offender was released from confinement. We validated the complaint and determined
that incomplete Navy guidance had led to the non-notifications.13 Additionally, while
researching the complaint, we identified only limited Service-wide policy to guide the
required notifications. We, therefore, decided to evaluate the notification process.

8
     Pub. L. 98-473, Title II, Chapter XIV, 98 Stat. 2170, codified, as amended, at various sections of
     Titles 18 and 42.
9
     Pub. L. 101-647, Title V, 104 Stat. 4820, codified, as amended, at 42 U.S.C. §10601, et seq.
10
     Pub. L. 103-322, 108 Stat. 1796, codified, as amended, at various sections of Titles 8, 18, 28, and 42.
11
     Pub. L. 104-132, 110 Stat. 1214, codified, as amended, at various sections of Titles 1, 8, 18 and 42.
12
     Pub. L. 105-6, 111 Stat. 12, codified at 18 U.S.C. §§3481 note, 3510, 3510 note and 3593.
13
     In assessing the complaint, we found the Navy had issued corrected guidance to its field activities.
     However, during this evaluation, we found that the incomplete guidance was still in use at another large
     Navy correctional facility. This facility was also not notifying local law enforcement upon releasing
     sex offenders.


                                                      2
         Our research for the evaluation identified an earlier IG DoD report that addressed
requirements in the VWPA and the Attorney General Guidelines, including VWPA
implementation at military confinement facilities.14 According to this report, 13 military
confinement facilities were visited in 1991, and none had victim and witness assistance
notification procedures in place. Our research also showed that the individuals
responsible for performing victim and witness notifications at military confinement
facilities were usually the same individuals who were responsible for sex offender
notifications. As a result, we decided to include military confinement facility
notifications to victims and witnesses in our evaluation coverage.

Evaluation Objectives, Scope and Methodology
        Our primary objective was to determine whether the Services satisfy their
notification requirements for military sex offenders, including whether DoD and/or
individual Service:

            • regulatory guidance adequately address the requirement to notify State and
local law enforcement and registration officials when a convicted military sex offender is
released from confinement or is convicted and not confined;

          • processes are effective in notifying State and local authorities when a
convicted military sex offender will reside in their jurisdiction; and

          • processes are effective for notifying victims and witnesses regarding
convicted military sex offenders.

        The CJSA required sex offender notifications commencing one year after
enactment, which occurred on November 26, 1997. DoD, therefore, was required to
begin sex offender notifications on November 25, 1998. Based on this requirement, we
asked the judge advocate headquarters for the Army, Navy, Air Force, and Marine Corps
to identify all military members convicted of a covered sex offense by courts-martial
during the period November 25, 1998, through December 31, 2000. The judge advocate
offices identified 600 relevant convictions (232 Army, 153 Navy, 106 Air Force, and
109 Marine). From this group, we selected a statistical random sample to determine if
the Services satisfied their sex offender and victim/witness notification requirements. We
then organized this sample according to Service responsibility for making the
notifications; that is, the Service that operated the confinement facility where the prisoner
was confined or, if the sex offender was convicted and not confined, the Service that




14
     Inspector General, Department of Defense, Inspection Report, 93-INS-03, “Victim and Witness
     Assistance,” December 12, 1992, p 50.


                                                    3
convicted the offender. Ultimately, we identified notification requirements for the
sample, as follows.15

                                              Table A
                                        Required Notifications
                 Type of              Army         Navy         Air       Marine        Total
              Notification                                     Force      Corps
                Required
            Sex Offender                    19           26         29           23          97
            Victim / Witness                29           38         28           31         126




15
     Our sample was designed by using the 95 percent confidence level to reflect DoD-wide contributions to
     the total cases. We originally selected 35 offenders for each Service (140 total offenders) to ensure
     equal focus on individual Service policies, procedures and processes that govern notifications. During
     our fieldwork, however, we determined that some prisoners were not confined at the prisons originally
     identified to us. In these cases, it was necessary to move accountability to the Service with actual
     custody. Further, 18 offenders included in the original sample were convicted for non-covered
     offenses, and 25 sex offenders remained in confinement, thereby not requiring current sex offender
     notifications. Similarly, for victim and witness notification requirement purposes, 14 offenders were
     not sentenced to confinement, obviating any requirement for confinement facility notifications to
     victims and witnesses. Victim and witness notification requirements, however, apply to both covered
     and non-covered sex offenses.


                                                     4
EVALUATION OF DOD CORRECTIONAL FACILITY COMPLIANCE WITH
    MILITARY SEX OFFENDER NOTIFICATION REQUIREMENTS

                          Part II – Evaluation Results
Sex Offender Notification

                  Finding A. DoD published guidance
                     providing for sex offender
                     notifications in accordance with
                     statutory requirements. The
                     Services, however, did not fully
                     implement the guidance and generally
                     are not meeting their notification
                     requirements.
          Introduction
        The Wetterling Act requires registration based on sex offender convictions. It
does not matter whether a convicted sex offender is actually confined. It also does not
matter whether the conviction occurs in or outside the United States. Although more
difficult in application, it also does not matter that a military prison inmate is being
released from confinement for a non-covered offense, if the inmate had a previous
covered offense conviction. The previous sex offense conviction requires current
registration and notification to State and local law enforcement officials even though the
current confinement may not involve a covered offense.

          DoD Guidance
        In 1999, DoD began issuing policy to implement the Wetterling Act and CJSA.
DoD Directive (DoDD) 1325.4, “Confinement of Military Prisoners and Administration
of Military Correctional Programs and Facilities,” September 28, 1999, required the
Military Departments to establish policies and procedures ensuring compliance with the
statutory sex offender notification requirements. DoD Instruction (DoDI) 1325.7,
“Administration of Military Correctional Facilities and Clemency and Parole Authority,”
July 17, 2001, implemented the policies and procedures. 16 The DoDI specifically

16
     The Assistant Secretary of Defense (Force Management Policy) (ASD(FMP)), Office of the Under

                                                   5
identified the categories of conduct punishable under the Uniform Code of Military
Justice that were subject to the notification requirements (see Appendix B). DoDI 1325.7
also required several specific actions:

            • Upon an inmate’s entry into the confinement facility, the commander will
review all available records concerning the inmate and determine if the inmate was ever
convicted of a covered offense.

           • Before releasing an inmate from a confinement facility, the commander
will review all available records concerning the inmate and determine if the inmate was
ever convicted of a covered offense.

            • Before final inmate release, the correctional facility will (1) advise the
inmate convicted of a covered offense about registration requirements in the State where
the inmate expects to reside, work, carry on a vocation, or be a student after release from
military confinement; (2) advise the inmate that he/she is subject to sex offender
registration in the State; and (3) have the inmate acknowledge the registration
requirements and include the acknowledgement in the inmate’s permanent military file.

           • Five days before the final release date, the confinement facility will
provide separate notices to (1) the chief law enforcement officer for the State, (2) the
chief law enforcement officer for the local jurisdiction, and (3) the State or local agency
responsible for sex offender registrations in the area where the inmate expects to
residence after release. The notices to State and local officials include: the inmate’s
intended residence; acknowledgment that the inmate is subject to registration; the
inmate’s criminal history record; and the offense for which the inmate was confined.

           • The Military Department will establish a system to verify that required sex
offender notifications are actually made.17

        Although the DoD guidance required specific Service actions necessary to meet
the notification requirements, the guidance did not address specific types of courts-
martial (Summary Courts-Martial, Special Courts-Martial, and General Courts-Martial)
convictions that are subject to the Wetterling Act and CJSA requirements. Of specific
relevance is the manner in which Summary Courts-Martial should be treated for

     Secretary of Defense (Personnel and Readiness) (OUSD(P&R)), originally disseminated guidance on
     required notifications to the Service Secretaries in a Policy Memorandum dated December 23, 1998,
     Subject: Notice of Release of Military Offenders Convicted of Sex Offenses and Crimes Against
     Minors. The memorandum covered both confined and non-confined offenders. The guidance
     pertaining to confined offenders was incorporated into DoDI 1325.7 when issued. The guidance on
     non-confined offenders was added when the Instruction was reissued on July 17, 2001.
17
     The 1999 DoDI (Paragraph 6.18.6.1.4) required that the “. . . Secretaries of the Military Departments
     will establish a system to track and ensure compliance with the registration requirements by all
     prisoners [emphasis added] from the Service who have or are required to register.” This requirement
     exceeded the level necessary to determine compliance with notification requirements and was changed
     when DoDI 1325.7 was revised in 2001. A representative advised us that the Deputy Under Secretary
     of Defense for Program Integration, the proponent for the instruction, never intended for the Services to
     determine and track inmate compliance with the sex offender registration requirements.


                                                       6
notification purposes in light of the U.S. Supreme Court’s decision in
Middendorf v. Henry.18 The guidance also did not address how the Services should meet
the requirements when a sex offender is convicted, but not confined, or is convicted and
confined outside the United States. Appendix C presents a flow chart showing the
notification process required in DoD guidance.

          Service Policy
        The Services have not fully implemented the DoD policy. Only the Air Force
published Service-wide policy to govern sex offender notifications. Air Force Instruction
(AFI) 31-205, “Corrections Program,” June 21, 1999, and AFI 51-201, “Administration
of Justice,” November 2, 1999, cover all convicted offenders, whether or not confined.19

        In the Navy, the Navy Personnel Command (NAVPERSCOM) is responsible for
the confinement function. In 1999, NAVPERSCOM issued memorandum policy,
NAVPERSCOM memorandum, “Notice of Release of Military Offenders Convicted of
Sex Offenses or Crimes Against Minors,” 5111, Ser 84/083, July 21, 1999, establishing a
sex offender notification program for Navy confinement facilities. The initial policy,
however, was incomplete in that it did not require Navy confinement facilities to notify
local law enforcement officials when releasing an inmate from confinement.
NAVPERSCOM reissued the memorandum guidance in April 2000, correcting this
omission.20 Neither the initial nor revised policy includes guidance for notifications
related to Summary Courts-Martial convictions. They only address requirements related
to Special or General Courts-Martial convictions. Further, they do not include guidance
for notifications involving offenders who are convicted and then not confined.

        Subsequent to our fieldwork, the Navy issued Secretary of the Navy (SECNAV)
Instruction 5800.14, “Notice of Military Offenders Convicted of Sex Offenses or Crimes
Against Minors,” October 23, 2001. This Instruction prescribes notification processes for
sex offenders convicted of covered offenses (whether or not confined) at Special or
General Courts-Martial, and requires notifications to State and local officials. Overall,
however, the Navy guidance is still inadequate because it does not prescribe notifications
when an inmate not currently confined on sex offender charges, but with a previous sex-
offense conviction, is released from confinement.
18
     Pub. L. 105-119, Title I, §115(a)(8)(C)(ii), 111 Stat. 2466, requires a military member “sentenced by a
     court martial” for a covered offense to register as a sex offender. However, Middendorf v. Henry, 425
     U.S. 25 (1976), the Supreme Court held that a Summary Court-Martial was not an “adversary
     proceeding” nor was it a “criminal prosecution for the purpose of the Sixth Amendment.” These
     conclusions raise concerns regarding the relationship between summary court-martial proceedings and
     the sex offender registration/notification requirements imposed by the statute.
19
     As discussed later, however, the more complete Air Force policy has not ensured required sex offender
     notifications.
20
     NAVPERSCOM memorandum, “Notice of Release of Military Offenders Convicted of Sex Offenses or
     Crimes Against Minors,” 5800, Ser 84/078, April 28, 2000. As mentioned previously in the
     Background section of this report, we identified the re-issuance during our actions on a complaint
     received from a Police Detective in San Diego, California. In addition, during our fieldwork for this
     evaluation, we found that one large Navy confinement faculty was still using the 1999 memorandum
     policy to guide its notifications.


                                                      7
        The Corrections Section, Headquarters, Marine Corps, distributed Marine
Administrative (MARADMIN) 054/99, effective February 11, 1999, directing Marine
Corps confinement facilities to implement Section 115(a)(8), the CJSA Act.21 However,
the MARADMIN did not include specific guidance for implementation, but merely stated
an expectation that SECNAV would establish procedures necessary to comply with
statutory notification requirements. Individual Marine Corps confinement facilities,
therefore, were left to develop their own procedures and processes for meeting the
requirements.

       The Army had preexisting guidance requiring inmate interviews to ensure
compliance with applicable State laws concerning violent or sex offender registration
requirements.22 This guidance, however, did not address other aspects of the relevant law
or DoD guidance. See the chart comparing DoD and Service guidance at Appendix D.

          Notifications
        The following table shows the extent to which DoD was meeting its sex offender
notification requirements in our random sample.

                                        Table B
                          Required and Actual Notifications for
              Sex Offenders Released From or Not Sentenced to Confinement
                                                               Air      Marine          Total
                                    Army         Navy
                                                              Force     Corps        No.     %
      Offenders with
      Notification                        19             26       29           23       97     100.0
      Requirement
      Offender
                                          11             18       10            8       47      48.4
      Acknowledgement*
      State Law
      Enforcement Official                 0             18         7           5       30      30.9
      Notified
      Local Law
      Enforcement Official                 2              9         9           4       24      24.7
      Notified
      State Registry
                                          10             17         7           8       42      43.3
      Official Notified
* Numbers do not include one inmate at an Army prison and one inmate at a Marine Corps prison who
  were still confined, but who had already signed the acknowledgement. Numbers do include
  acknowledgements that were completed and witnessed, but the convicted sex offender refused to sign
  the form.


21
     The MARADMIN referenced a memorandum dated December 23, 1998, from ASD (FMP) to the
     Service Secretaries and Defense Agency Directors, Subject: Notice of Release of Military Offenders
     Convicted of Sex Offenses and Crimes Against Minors.
22
     Army Regulation (AR) 190-47, “The Army Corrections System,” August 15, 1996, paragraph 8-27c.


                                                     8
        As can be seen in Table B, although the rates varied from Service to Service and
by notification type, overall DoD met its sex offender notification requirements in less
than half of our sample cases. Local law enforcement officials were notified only
24.7 percent of the time.

          Acknowledgement Documentation
       DoD guidance requires a military sex offender to sign documentation
acknowledging that the Service has advised the offender about registration requirements.
The guidance also requires the Service to maintain this document in a permanent file (see
Appendix D). The Services, however, are generally not meeting these requirements.

        At the time of our fieldwork, neither the Army nor the Marine Corps had issued
guidance on storing or retaining sex offender acknowledgement documents.23 In the
Navy, Bureau of Naval Personnel (BUPERS) guidance requires permanently filing the
acknowledgement document in the sex offender’s Correctional Treatment File. We
found the original, signed documentation (DD Form 2791-1, “Prisoner’s
Acknowledgement of Sex Offender Registration Requirements”) for nearly all (17 of 18)
sex offenders released from Navy confinement facilities. The acknowledgements,
however, were stacked on bookshelves at the confinement facilities because the staffs did
not know what to do with the documents.

       The Air Force requires filing the original, signed DD Form 2791-1 in the sex
offender’s permanent personnel record.24 We located five original, signed
DD Forms 2791-1, two of which were in the offenders’ permanent personnel records.
We also located one copy of a signed DD Form 2791-1 in a sixth offender’s permanent
personnel record. Acknowledgement documentation for the remaining four offenders
(see Table B above), however, were not filed in the permanent personnel records in
accordance with policy.

          Notification Timeliness
        The DoD guidance requires notifying State and local officials at least 5 days
before releasing a sex offender from confinement. The Federal Bureau of Prisons has a
5-day standard for such notifications,25 and the law directed the Secretary of Defense to

23
     Some Army and Marine Corps confinement facilities that we visited were retaining the original, signed
     acknowledgement documents (for seven offenders released from Army confinement and six offenders
     released from Marine Corps confinement), but the staffs were unsure what to do with these documents.
24
     For all Air Force personnel in our sample who were subsequently discharged from the Service, we also
     reviewed their permanent personnel record on file at the Military Personnel Records Center in St Louis,
     Missouri. We found one original DD Form 2791-1 among the 18 personnel records we searched at the
     records center. One record could not be located at all, and there was no DD Form 2791-1 original or
     copy in the other 16 records. The one original that we found is included in our reporting.
25
     Pub. L. 105-119, Title I, §115(a)(8)(A)(iv) codified at 18 U.S.C. § 4042(c)(2) specifying notice required
     upon release of a “sex offender.” See also Pub. L. 103-322, Title II, Subtitle D, §20417(5), codified,
     with amendments, at 18 U.S.C. §4042 (b)(1) specifying notice required upon release of a prisoner in
     general.


                                                       9
follow the Federal Bureau of Prisons standards when practicable.26 There is no DoD
timeliness standard for notifications for sex offenders who are convicted, but not
confined.

        Seven sex offenders in our sample were not confined.27 In six cases, we did not
locate any evidence of a notification. In the seventh case, notifications were made, but
they were approximately two years after the conviction and after we announced our visit
to the confinement facility. Similarly, 15 sex offenders were convicted overseas and
were either not confined or were released from confinement overseas. Partial
notifications, consisting of the prisoner’s acknowledgement and notice to the State
registry official, were made in one case. Required notifications were not initiated in the
remaining 14 cases.

       The following table shows the extent to which notifications in our sample cases
were timely for sex offenders released from confinement.28

                                         Table C
                           Notices to State and Local Officials
               Compliance with Requirement to Notify 5-days Before Release

                                                                 Air       Marine             Total
                                          Army        Navy
                                                                Force      Corps
                                                                                        No.       %
        Sex Offenders with
        Notification                         18         24         26          22        90     100.0
        Requirements*
        Sex Offenders Where
        All Notifications Met                0          5          3           1          9      10.0
        5 Day Requirement.
* Figures include three prisoners released from Army confinement overseas, three prisoner’s released
  from Air Force confinement overseas, and nine prisoners released from Marine Corps confinement
  overseas and excludes those not sentenced to confinement.

       As can be determined from Table C, the Services did not comply with the 5-day
timeliness requirement in 90 percent of the sample cases.




26
     Pub. L. 105-119, Title I, §115(a)(8)(C)(iii) specifying notice required upon release of a military “sex
     offender.” See also, Pub. L. 103-160, Title V, Subtitle E, §552(a) specifying notice required upon
     release of a military prisoner in general.”
27
     This includes one person who was supposed to be confined, but for a confusing array of circumstances,
     was not confined.
28
     Neither DoD nor the individual Services established a standard (e.g., certified mail date, return receipt
     requested date, or fax confirmation date) for measuring compliance. We based our analysis on the
     actual notification document date as compared to the prisoner release date.


                                                      10
          Verification Systems
        DoD guidance required the Services to establish systems to verify that required
sex offender notifications were actually made. None of the Services, however, have
established such a system.

          Training
        The Navy is the only Service that has adopted formal training to address sex
offender notification requirements. The Navy’s Corrections Management Course
familiarizes Navy corrections supervisors with the requirements. The training course,
however, only addresses sex offenders convicted at Special or General Courts-Martial
and sentenced to confinement. The lesson plan does not mention Summary
Courts-Martial or sex offenders who are not confined.

          Management Oversight
       The Services have little organized oversight for their sex offender notification
processes. At each of the 29 military correctional facilities that we visited or contacted
during our evaluation, we asked about the existence of an oversight review, whether an
outside review or a self-inspection.

       We determined that there was no oversight review at Navy or Marine Corps
confinement facilities.

         The Army’s technical assistance visit (TAV) program includes one review
standard, entitled Sex Offender Registration Counseling, which is to examine whether
“…each inmate is interviewed to ensure compliance with applicable State laws
concerning violent or sex offender registration requirements….”29 We located results
from this standard at two (one in the Continental United States and one overseas) of the
five Army confinement facilities contacted during this evaluation. The results indicated
that both facilities were in compliance. However, the TAV for the overseas facility
included a notation that “. . . the nature of the facility’s operation precludes it from
displaying practice.” We were unable to determine what this language meant
specifically, but three sex offenders included in our sample were released from this
facility and were not notified of their obligation to register.

         One Air Force confinement facility that we visited had a local confinement
facility self-inspection checklist accompanying a self-inspection report dated February 9,
2001. The checklist referred to sex offender notifications and the report indicated that the
facility was in compliance. The checklist, however, only referred to offender
notification, not notifications to State and local officials. For the one offender in our
sample who was confined at this facility, the facility notified the offender in writing that

29
     This standard is based on AR 190-47, “The Army Corrections System,” August 15, 1996, paragraph 8-
     27c, published before the CJSA required notifications covering sex offenders convicted at courts-
     martial.


                                                   11
he was obligated to register as a sex offender. The facility also sent notices to local law
enforcement in the area where the sex offender expected to reside after confinement.
These notifications occurred in 1999. We did not find any further evidence of internal or
external inspections or oversight reviews at Air Force confinement facilities.

          Facility Operating Instructions
        Only 7 (24 percent) of the 29 confinement facilities that we visited or contacted
during the evaluation had facility operating instructions (OI) addressing the sex offender
notification program, as shown in the table below.

                                        Table D
                             Service Confinement Facilities
             With Operating Instructions Covering Sex Offender Notifications
                                   Army            Navy         Air Force         USMC              Total
Visited /Contacted                    5               3             16                5              29
Coverage in                       3 (60%)         1 (33%)        2 (13%)          1 (20%)          7(24%)
Facility OI


          Conclusions
        The DoD guidance implemented the sex offender notification requirements in the
Wetterling Act and the CJSA and should have been adequate for Service implementation,
but for specific guidance regarding Summary Courts-Martial. The Services, however, did
not fully implement the DoD guidance and generally are not satisfying the statutory
notification requirements for military sex offenders. Some representatives at military
confinement facilities indicated that they were unaware of the requirements. Others were
unsure how the requirements applied to prisoners convicted overseas, or, due to language
in the Report of Results of Trial30 and/or Confinement Order, did not recognize the
offense as a covered offense requiring notifications.

        Service-wide guidance, management oversight, and an effective process for
verifying required notifications would significantly improve the DoD sex offender
notification program. Since courts-martial results normally determine notification
requirements, each report of trial should include a statement addressing whether sex
offender notifications are required. These reports would then constitute timely alerts for
the confinement facility, the sex offender, and others involved in the process, including
the offender’s legal representative, when the conviction is for a covered offense. These
reports would also assist in determining notification requirements for an offender with a

30
     Rules for Courts-Martial (R.C.M.) 1101(a), Manual For Courts-Martial, United States (2000 Edition),
     requires the trial counsel to promptly prepare a report of the results of trial informing the commander,
     convening authority, and confinement facility, if confinement is adjudged, of the findings and sentence.
     The Military Departments’ Judge Advocates General have issued written guidance and formats for
     these reports. R.C.M. 1304(b)(2)(F)(v) and (vi) impose a similar responsibility on the Summary Court-
     Martial.


                                                      12
prior sex offense conviction who is subsequently convicted and confined for a non-
covered offense. While preparing for a court-martial, we assume the trial counsel would
identify other crimes for which the defendant was convicted. The trial counsel could then
describe in the report of the results of trial the prior convictions for a covered offense that
require notifications when the person is released from confinement. Although these
cases, involving a prior conviction for a covered offense, will be limited in number, there
must be adequate policy, procedures, and management to ensure compliance with
requirements when these cases do occur.

           Recommendations, Management Comments and Evaluation
                             Response
       A.1.    We recommend that the Military Departments revise and reissue
               their policies on military sex offender notifications, ensuring the
               policies are consistent with DoD policy and specifically addressing
               notification requirements for:

               a.   military sex offenders who are convicted by courts-martial and
                    not sentenced to confinement;

               b.   military offenders with prior sex offender convictions who are
                    currently being released from confinement for non-covered
                    offenses; and

               c.   military sex offenders convicted outside the United States and
                    either confined outside the United States or not confined as a
                    result of the conviction.

        Army Comments. The Army concurred and reported that it will revise Army
Regulation (AR) 190-45, “Law Enforcement Reporting,” to incorporate all DoD criteria
related to sex offender notifications. According to the Army, the revisions will
emphasize the notification requirements for military sex offenders who are (1) convicted
by courts-martial and not sentenced to confinement; (2) currently being released from
confinement for non-covered offenses; and (3) convicted outside the United States and
either confined outside the United States or not confined as a result of the conviction.
The Army also advised that it will revise its personnel and military justice policy and
processes to identify soldiers convicted of covered sex offenses and assigned to Army
confinement facilities and/or to Army installations and units. In turn, Army automated
personnel systems will utilize a unique code to identify and track these soldiers, and
installation provost marshals will ensure they are notified that they must complete the sex
offender registration process with appropriate State and local agencies.

       In addition, the Army recommended that this report include annotations
recognizing:

            • sex offender notification is merely one of the numerous Federal
notification and reporting statutes DoD components have been required to implement;


                                              13
           • the magnitude and variance in different State laws the DoD components
were required to meet in implementing these statutes; and

            • the substantial resource implications associated with implementing these
notification and reporting statutes.

        Evaluation Response. The Army comments are responsive. In commenting on
the final report, the Army should include an estimated date for completing the policy
revisions described above.

        With respect to the report annotations that the Army requested to recognize the
substantial resources involved in Federal notification statutes, the full text of the Army
comments can be found at Appendix K-2. Our evaluation did not include notification
and reporting statutes other than the ones specifically addressed in this report. We also
did not assess specifically the resources involved in the Federal notification requirements
addressed in this report. Accordingly, we cannot comment specifically on program
resources. We note, however, that the program offices and individuals visited or
contacted during this evaluation did not indicate that their deficient notifications were due
to inadequate resources.

         Navy Comments. The Navy concurred, advising that it will revise SECNAV
Instruction 5800.14, “Notice of Military Offenders Convicted of Sex Offenses or Crimes
Against Minors” to establish policy specifically addressing the notification requirements
in this recommendation. The Navy estimated that it will complete the revisions by
September 30, 2002. In its comments, the Navy also indicated that DoD should provide
policy guidance concerning military members convicted of relevant sex crimes in foreign
courts.

       Evaluation Response. The Navy comments are responsive. We request that the
Navy provide us with a copy of revised SECNAV Instruction 5800.14 upon completion.
With respect to convictions in foreign courts, that issue was outside the scope of our
evaluation. However, the law establishing DoD sex offender notification requirements
appears to limit DoD responsibilities to courts-martial convictions.

        Air Force Comments. The Air Force concurred, advising that it will change its
regulatory guidance in AFI 31-205, “The Air Force Corrections System,” to address this
recommendation. The Air Force also advised that its revised guidance will cover military
sex offenders convicted by courts-martial and not sentenced to confinement; military
offenders with prior sex offender convictions being released from confinement for non-
covered offenses, and military sex offenders convicted outside the United States and
either confined outside the United States or not confined as a result of the conviction.
The Air Force estimated that it would complete the revisions during July 2002.

        Evaluation Response. The Air Force comments are responsive. We request that
the Air Force provide us a copy of revised AFI 31-205 upon completion.




                                             14
       A.2.    We recommend the Military Departments establish a time
               requirement and responsibility for completing notifications involving
               military sex offenders convicted by courts-martial, but not sentenced
               to confinement.

       Army Comments. The Army concurred and in a forthcoming revision of
AR 190-45 will impose time requirements and responsibility for completing notifications
involving military sex offenders convicted by courts-martial but not sentenced to
confinement.

        Evaluation Comments. The Army comments are responsive. In responding to
the final report, the Army should establish an estimated date of completion and provide a
copy of the revised policy.

        Navy Comments. The Navy concurred, but pointed out that SECNAV
Instruction 5800.14 currently requires the Naval Criminal Investigative Service (NCIS) to
provide notifications within 15 days for military sex offenders not confined.

        Evaluation Comments. We were aware of the SECNAV Instruction 5800.14
requirements, which provide that the convening authority or designee must notify NCIS
“immediately” when a sex offender is convicted but not sentenced to confinement, and
then allow NCIS an additional 15 days to send out the notification form. The
“immediately” requirement is not sufficiently specific to be meaningful. Further, the
15 days then allotted for NCIS to send out the notification form does not reflect the sense
of urgency inherent in the overall requirement that correctional facilities complete
notifications 5 days before releasing an inmate from confinement. The Navy should
revise its current policy to include a specific timeframe for the convening authority
notifications and substantially accelerate the standard for NCIS notifications. Navy
comments on the final report should address these issues and include an estimated date
for completion.

       Air Force Comments. The Air Force concurred, advising that a revised
AFI 31-205, which will be published by the end of July 2002, will include new guidance
providing “[o]nce notified of the conviction by SJA [Staff Judge Advocate], the
[confinement] facility shall notify the agencies immediately, not to exceed 24 hours.”

        Evaluation Response. We commend the 24-hour notification time that the Air
Force intends to specify for confinement facilities. However, these notifications cannot
occur until after the SJA notifications, and the comments do not indicate that the Air
Force intends to establish a time requirement for those notifications. In this regard, we
note that Paragraph 12.15, AFI 51-201, “Administration of Military Justice,” requires the
SJA to notify the Security Forces when a sex offender is not ordered to post trial
confinement. The policy, however, does not specify timing for such a notification. The
revised Air Force policy should include time requirements for these SJA notifications.
Air Force comments on the final report should address this issue and include and
estimated date for completion.



                                            15
       A.3.    We recommend that the Military Departments adopt systems, with
               appropriate management oversight mechanisms, to track their sex
               offender notifications and ensure compliance with Federal laws
               requiring notifications for military sex offenders.

        Army Comments. The Army concurred, advising that revised AR 190-45 will
provide for a system to ensure compliance with military sex offender notification
requirements, and track the sex offender notifications. Additionally, the Army pointed
out that in January 2002, it established a Law Enforcement and Policy Oversight Section
(a Section Chief and one action officer) within the Security, Force Protection, and Law
Enforcement Division (G-3, Army Headquarters) to establish clear, coherent policies
compliant with DoD-mandated criteria and oversee Army-wide compliance with all
Federal notification requirements.

        Evaluation Response. The Army comments are responsive. In responding to the
final report, the Army should provide an estimated completion date for the AR 190-45
revisions. Upon completion, the Army should also send us a copy of the revised policy.

        Navy Comments. The Navy concurred and advised that it is revising SECNAV
Instruction 5800.14 to include a mechanism for tracking sex offender notifications. The
Navy also advised that it is incorporating its revised policy in its Confinement Facility
Inspection Guides and the Brig Managers training course, and expects to complete the
revisions by the end of October 2002

      Evaluation Response. The Navy comments are responsive. We request that the
Navy send us copies of the revised SECNAV Instruction, inspection guides, and Brig
Managers Course when completed.

        Air Force Comments. The Air Force concurred. According to the Air Force
comments, the Headquarters, Air Force Security Forces Center (HQ AFSFC), has
established a program manager to oversee the Sex Offender Notification Program. This
program manager, in conjunction with Air Force legal offices, will ensure that documents
are completed properly and forwarded to the appropriate locations. HQ AFSFC has also
developed: (1) comprehensive checklists for Air Force units to use in self-inspections,
and (2) an accreditation program for Major Commands (MAJCOM) and higher
headquarters elements to use in inspecting and accrediting confinement facilities every
3 years, at minimum. The Air Force indicated that its accreditation inspections will
involve a detailed review of both sex offender and victim/witness notification programs.
The Air Force advised that it would implement the new accreditation program after a
revised AFI 31-205 is published, which is expected by the end of July 2002.

        Evaluation Response. The Air Force comments are responsive. We request that
the Air Force send us copies of the revised regulatory guidance, checklists, and
accreditation program upon completion.




                                            16
          A.4.     We recommend that the Military Departments revise their current
                   Reports of the Results of Trial to specifically indicate whether sex
                   offender notifications are required.

         Army Comments. The Army concurred.31 In addition to revising its specific
AR 27-10 guidance on preparing Reports of the Results of Trial, the Army advised that it
has additional pending revisions to this regulation to require extensive coordination
between the military trial counsel, the installation provost marshal, the confinement
facility, and the Army Crimes Records Center. According to the Army, this coordination
process will include several different mechanisms to ensure compliance with DoD and
Army sex offender notification requirements.

        Evaluation Comments. The Army comments are responsive. In responding to
the final report, the Army should provide an estimated completion date for these policy
revisions. Upon their completion, the Army should also send us a copy.

       Navy Comments. The Navy concurred.32 According to the Navy comments,
within 60 days after Reports of Results of Trial are changed to include sex offender
information, the corrections system can develop policy and guidance to capture sex
offender notification requirements based on the Reports of Results of Trial.

        Evaluation Response. The Navy comments are responsive. In commenting on
the final report, the Navy should include an estimated completion date for changing its
Report of Results of Trial, as well as for the subsequent revisions to corrections facility
policy and guidance to capture sex offender notification requirements based on the
Reports of Results of Trial.

      Air Force Comments. The Air Force concurred. Although indicating the
changes will need to be coordinated fully within the Office of the Air Force Judge
Advocate General, the Air Force estimated that it will complete the changes by the end of
October 2002.

        Evaluation Response. The Air Force comments are responsive. We request that
the Air Force send us a copy of its revised policy when completed.




31
     While processing the Army comments, we found the response to this recommendation a little vague.
     We contacted the report’s point of contact in the Army General Counsel’s office, who assured us the
     Army concurred in the recommended changes to the Report of Results of Trial.
32
     Although concurring with the recommendation, the Navy comments indicated that changing the Report
     of Results of Trial was beyond the Department of the Navy’s scope, which is clearly incorrect. While
     processing the comments, we discussed this issue with the official Navy contact for the report. The
     contact agreed the comment was incorrect and advised that the stated concurrence indicated the Navy’s
     intention to implement our recommendation.


                                                    17
          A.5.     We recommend that the Military Departments complete statutorily
                   required notifications for all convicted military sex offenders released
                   from confinement or sentenced to other than confinement on or after
                   November 25, 1998, where notifications have not yet been completed.

        Army Comments. The Army concurred; however, for those sex offenders no
longer under military jurisdiction the Army will only make “good-faith effort”
notification attempts to the sex offenders’ last known or reported address. If the sex
offender is located, notifications will be completed in accordance with all applicable DoD
and Army policies.

        Evaluation Comments. We understand the comments to mean that for those sex
offenders no longer under military jurisdiction, the Army does not intend to meet its
statutory notification requirements unless it locates the sex offenders at their last known
or reported addresses. Although we recognize the difficulty that the Army might now
encounter in locating sex offenders no longer under a Service’s jurisdiction, the
requirements remain and are unaltered by the current situation. In commenting on the
final report, therefore, the Army should address how it intends to more effectively satisfy
these notification requirements. The Army should also provide an estimated date for
completing previously unfulfilled sex offender notifications and identify its focal point
for those notification efforts.

        Navy Comments. The Navy concurred. To begin resolving delinquent sex
offender notifications, the Navy advised that it now has a collaborative effort between the
Judge Advocate General, the Naval Criminal Investigative Service, and PERS-84 (Navy
corrections management) to develop and release a new NAVADMIN.33 According to the
Navy, the new NAVADMIN will be designed to ensure that statutorily required
notifications are completed for all convicted military sex offenders released from
confinement or sentenced to other than confinement on or after November 25, 1998. The
NAVADMIN will be released by September 30, 2002.

        Evaluation Comments. The Navy comments are responsive. In commenting on
the final report, the Navy should include an estimated completion date for complying
with the statutory notification requirements for all currently delinquent sex offender
notifications and identify its focal point for those notification efforts.

         Air Force Comments. The Air Force concurred and advised that it has (1) sent
letters to all organizations where a sex offender was confined or convicted and not
confined, and (2) conducted national agency checks to help determine the whereabouts of
the sex offenders. The Air Force reported a June 15, 2002, estimated completion date for
actions on this recommendation.



33
     OPNAV Instruction 5000.25H, “Authority to Release NAVOPS, NAVADMINS, and Routine
     Messages From the OPNAV Staff,” December 10, 2001, explained that NAVADMINs are messages
     used to announce urgent changes to rules, regulations, or directives to comply with time limits imposed
     by higher authority.


                                                     18
        Evaluation Response. The Air Force comments are responsive. In commenting
on the final report, the Air Force should include an estimated completion date for
complying with the statutory notification requirements for all currently delinquent sex
offender notifications and identify its focal point for those notification efforts.

       A.6.    We recommend that the Under Secretary of Defense (Personnel and
               Readiness), in coordination with the Office of the General Counsel,
               DoD, issue guidance on whether a person sentenced by a Summary
               Court-Martial for a covered offense requires sex offender
               notifications.

        USD(P&R) Comments. The Deputy Under Secretary of Defense (Program
Integration) (DUSD(PI)), commenting for the USD(P&R), concurred with the
recommendation and advised that the new guidance will be issued. In this regard, the
official USD(P&R) contact for the report has advised us in an e-mail that the issues have
been coordinated with the Office of the General Counsel, DoD, and the next revision to
DoDI 1325.7 will limit sex offender notification requirements to convictions at General
or Special Courts-Martial.

        Evaluation Response. The USD(P&R) comments are responsive. In
commenting on the final report, the USD(P&R) should provide an estimated completion
date for publishing the revised DoDI 1325.7.




                                            19
Victim and Witness Notification

                   Finding B. Military confinement
                      facilities frequently do not receive
                      documentation alerting them to
                      victim and witness notification
                      requirements, and do not always
                      satisfy those requirements even when
                      they receive the documentation.
          DoD Guidance
        As described in Appendix E and shown in the flowchart at Appendix F, DoD
guidance requires confinement facilities to notify victims and witnesses when an inmate’s
status changes, if the victim or witness requested notification. The Trial Counsel34 is
required to complete DD Form 2704, “Victim/Witness Certification and Election
Concerning Inmate Status” (Appendix G) for each military member convicted by court-
martial and sentenced to confinement. The form alerts the confinement facility as to
whether victims or witnesses exist, and whether the victims or witnesses want
notifications when a prisoner’s status changes. The form also contains information on
how to contact victims and witnesses who request notification. The DoD guidance
requires the Services to establish policies and procedures for implementing the Victim
and Witness Assistance Program, including procedures to ensure notifications to victims
and witnesses.

          Service Guidance
       As described in Appendix E, each Service has issued policies and procedures as
provided in DoD guidance.

          DD Form 2704
        To satisfy victim and witness notification requirements, it is essential that the
confinement facility receive a completed DD Form 2704 when receiving a new prison
inmate. Otherwise, the confinement facility will not know that a victim or witness has
requested notifications, or have the contact information necessary to complete
notifications.



34
     A judge advocate assigned as prosecutor in a particular court-martial case.


                                                      20
       Our random sample included 126 offenders sentenced to confinement, including
97 offenders convicted of covered offenses.35 Not all of the DD Forms 2704 were
available for the inmates in our sample.36

                                          Table E
                         Number of Offenders in Our Sample Confined
                                        Compared to
                            Number of DD Forms 2704 Located
                                            Confinement Facility Custodian
      Sample
                        Army               Navy      Air Force       Marine                      Total
     Inmate’s
                                                                      Corps
      Service
                      (1)      (2)      (1)    (2)   (1)    (2)     (1)    (2)                (1)      (2)
 Army                   23       21        1      1     2       2      2      0                 28       24
 Navy                    0        0       23     21     0       0      0      0                 23       21
 Air Force               6        5        8      7    26      23      1      0                 41       35
 Marine                  0        0        6      5     0       0     28     10                 34       15
 Corps
 Total                  29       26       38       34        28      25       32       10      126       95
       %                                                                                               75%
(1) Number of inmates
(2) Number of DD Forms 2704 located

         As can be seen in Table E, the number of DD Forms 2704 averaged 75 percent for
the Services overall.37 Additionally, we were told repeatedly that obtaining a
DD Form 2704 for an inmate often requires repeated tracing actions to the Trial Counsel.
Most confinement facilities, however, did not record their tracing actions nor the date on
which they received a DD Form 2704. We then asked for information on the number of
adjudged (sentenced by courts-martial) inmates in the confinement facility, and the
number for whom the facility did not have a DD Form 2704.38 Army facilities reported
899 adjudged inmates, 139 (16 percent) without a DD Form 2704. Navy facilities
reported 646 adjudged inmates, 122 (19 percent) without the form. Air Force facilities
reported 69 adjudged inmates, 3 (4 percent) without a DD Form 2704. Marine Corps
facilities reported 371 adjudged inmates, 169 (46 percent) without the form. We did not

35
     This number includes three offenders sentenced to confinement, but not confined in a military
     confinement facility. In addition to military courts-martial convictions, two had State court convictions
     and were confined in State correctional facilities. The third, due to a confusing array of circumstances,
     was discharged from Service before serving confinement. In each of these three cases, we checked with
     the Trial Counsel’s office to determine whether a DD Form 2704 or equivalent was completed and, if
     so, how it was processed to the confinement facility. The forms had not been completed.
36
     If a facility could not locate a DD Form 2704 for a particular inmate, but otherwise demonstrated
     notifications with respect to the inmate, we credited the facility as having DD Form 2704 for our
     purposes.
37
     We note that this low percentage for the Services is significantly skewed by the Marine Corps’
     compliance rate.
38
     We excluded inmates confined before 1995, because these confinements preceded publication of the
     DoD guidance on victim and witness notifications.


                                                        21
validate these numbers nor attempt to track missing DD Forms 2704 to determine if they
were ever sent to the confinement facility. However, this information and data from our
sample cases show that confinement facilities frequently do not have required
DD Forms 2704 for their inmates. This has a significant impact on confinement facilities
meeting their victim and witness notification requirements.39

          Notifications
         As indicated in Appendices E and F, if they request notifications, victims and
witnesses are entitled to notifications when an inmate’s status changes. These
notifications begin (initial notification) when an inmate enters a correctional facility and
continue through the inmate’s final release from confinement (final notification). In
reviewing actual notifications to victims and witnesses in our sample cases, we found that
initial notifications were completed 76 percent of the time, when the confinement facility
had a DD Form 2704 and knew a victim or witness had requested notification. This
information is shown in the following table.

                                              Table F
                             Initial Victim and Witness Notifications
                               (When Confinement Facility Knew
                                Notification Had Been Requested)
                                                          Custodial Agency
                                                                                Marine
                            Army             Navy           Air Force                              Total
                                                                                Corps
     No. of
                              21               20               24                  7                72
     Offenders
     No. of
     Offenders
                              13               19               19                  4              55 (76%)
     With Initial
     Notifications


         We found similar results for final notifications. Ninety-nine offenders in our
sample had been released from confinement. In 55 of these cases, the confinement
facility had received a DD Form 2704 or otherwise determined that at least one victim or
witness had requested notification. As can be seen in the following table, when the
confinement facilities knew a victim or witness had requested notification, they
completed final notifications to victims and witnesses before the inmates were released in
85 percent of the cases.



39
     This evaluation focused on confinement facility notifications. However, the Deputy Assistant Inspector
     General for Criminal Investigative Policy and Oversight has also written to The Judge Advocate
     General of each Military Department, as well as the Staff Judge Advocate to the Commandant of the
     Marine Corps, encouraging greater compliance with DD Form 2704 requirements and increased
     attention to forwarding completed DD Forms 2704 to confinement facilities. (See Appendix I)


                                                     22
                                      Table G
                  Final Victim and Witness Notifications in Sample
                         Completed Prior to Inmate Release
          (When Confinement Facility Knew Notification Had Been Requested)
                                                                Custodial Agency
                                                                                    Marine
                              Army              Navy               Air Force                              Total
                                                                                    Corps
     No. of
                                      14                   12              24                   5                 55
     Offenders
     Final
                                      14                   10              19                   4         47 (85%)
     Notifications*
* Does not include four final notifications (two Navy, one Air Force and one Marine Corps) initiated after
  the inmate was released

        Furthermore, the number of non-notifications in our sample cases could be higher
because, as shown in Table E, confinement facilities did not receive DD Form 2704 in
about 25 percent of cases. Clearly, victims and witnesses who may have requested
notification in these cases were not notified because the confinement facility did not even
know about them.

          Offenders Still Confined
         Twenty-five offenders in our sample were still confined. The confinement
facilities had DD Forms 2704 for 21 (84 percent) of these offenders. Victims or
witnesses had requested notification in 17 (81 percent) of these cases, and the
confinement facilities initiated notifications in 15 (88 percent) of those cases.40

          Program Reporting
        The Army, Air Force, and Marine Corps require monthly up-channel reporting
from each confinement facility. The Navy requires annual reporting. The individual
Service data reporting requirements are similar and all involve only cases in which a
victim and witness is known to have requested notification, e.g., the confinement facility
has a DD Form 2704 for the inmate. None involves cases where the confinement facility
has not received a DD Form 2704 and does not know whether victim or witness
notifications were requested.

          Victim/Witness Personal Data
         DoD and the Services exempt victim and witness information from release under
the Freedom of Information and Privacy Acts, to protect the individuals from possible
retaliation. For the same reason, inmates and other unauthorized personnel may not have

40
     Does not include one Army case where the Victim/Witness Coordinator had inactivated the
     victim/witness file for reasons not documented in the file. The current coordinator was new to the
     duties and could not explain the inactivation. We did not attempt to contact the victim.


                                                      23
access to victim or witness “identifying data.” The Army, Navy and Marine Corps
confinement facilities included in our evaluation all restrict access to victim and witness
data, limiting the access to the victim/witness coordinator, an alternate coordinator, and
their chain-of-command supervisors. Army, Navy, and Marine Corps confinement
facilities retain custody of victim and witness information. By Service regulation,41 Navy
and Marine Corps confinement personnel destroy victim and witness data 2 years after
the inmate release date. The Army archives victim and witness information with the
prisoner’s confinement records.42

        The Air Force requires filing victim and witness notification documentation in the
inmate’s CTF, but does not restrict access to the victim and witness coordinator,
alternate, and supervisors.43 At one confinement facility that we visited, for example, all
10 people assigned to the facility had access to the CTF and, therefore, the victim and
witness personal data. Additionally, when the Air Force releases an inmate from
confinement, the CTF (including victim and witness data) is sent to the inmate’s military
unit for retention.44 Although the victim and witness information is filed in a separate
envelope in the CTF, we believe this practice detracts from assuring confidentiality to
victims and witnesses and should be changed. The Air Force confinement community
should retain victim and witness data and restrict access to individuals with a strict need-
to-know.

              Recommendations, Management Comments and Evaluation
                                Response
          B.1.    The Military Departments take action to ensure that military
                  confinement facilities receive a DD Form 2704, “Victim/Witness
                  Certification and Election Concerning Inmate Status,” for each
                  adjudged inmate entering a confinement facility. Actions should
                  include:

                  a.    routine confinement facility reporting that identifies (by name
                        and confinement date) those adjudged inmates who were received
                        without a DD Form 2704; and

                  b. procedures for confinement facilities to receive missing
                     DD Forms 2704 immediately.

        Army Comments. The Army concurred and reported that in coordination with
Office of the Judge Advocate General, Criminal Law Division, and the Security, Force
Protection, and Law Enforcement Division of the G-3, Headquarters Department of the

41
     BUPERS Instruction 5800.3, “Victim and Witness Program,” June 5, 2000, paragraph 12a(2), and
     MCO P5800.16A, “Marine Corps Manual for Legal Administration,” August 31, 1999, paragraph 6-
     7.3c.
42
     AR 190-47, “Army Corrections System,” August 15, 1996, paragraph 13.9.
43
     AFI 31-205, “The Air Force Corrections System, April 9, 2001, paragraphs, 3.2.24 through 3.2.5.2.
44
     Ibid, paragraph 5.5.1.


                                                    24
Army (HQDA), it has implemented measures to correct this issue. On February 22,
2002, HQDA published an Army-wide message requiring installations to submit to the
Security, Force Protection, and Law Enforcement Division a completed DD Form 2704,
Victim/Witness Certification and Election Concerning Inmate Status, as a precursor to the
Division’s assignment of confinement space to a new prisoner. The form then will be
maintained centrally at HQDA with a copy furnished to the confinement facility. This
process was designed to ensure that required documents were both in hand before a
prisoner was accepted into confinement and readily available to confinement facility
Victim/Witness Coordinators in the performance of their duty to inform victims and
witnesses of changes in an inmate’s status. The Army claims this requirement has been
strictly enforced. In those cases where it has been impossible to complete the
DD Form 2704 before initiation of confinement, written justification from the installation
has been required to explain the deficiency. Army believes this will enable HQDA to
track those adjudged prisoners admitted to confinement without a DD Form 2704, and
will provide a mechanism to mandate eventual compliance. Further, the Army is
working to ensure that DD Forms 2704 are completed, filed, and tracked for prisoners
presently confined but for whom no DD Form 2704 can be located.

        Evaluation Response. The Army comments are responsive. We note the process
described is similar to the process currently in Army regulations. The added features that
require receipt before confinement space can be assigned to a new prisoner and written
justification when the form is impossible to obtain before confinement are impressive. In
commenting on the final report, the Army should include an estimated completion date
when regulatory guidance will be revised to incorporate these new features and provide
copies of the revisions.

        Navy Comments. The Navy concurred. BUPERS Instruction 5800.3, “Victim
and Witness Assistance Program,” January 5, 2000, will be revised to provide oversight
and tracking of non-receipt of DD Form 2704 for all confinements. The estimated
completion date was September 30, 2002. In the interim, PERS-84 (Navy corrections
management) will publish a policy letter outlining a system of reporting and tracking
non-receipt of DD Forms 2704, and procedures for resolving deficiencies. Estimated
date for completion was July 31, 2002

        Evaluation Response. The Navy comments are responsive. When completed,
please provide copies of the relevant portions of the policy letter and instruction.

        Air Force Comments. The Air Force concurred. Provisions that provide for
confinement facilities reporting that identifies (by name and confinement date) those
adjudged inmates who were received without a DD Form 2704, and procedures for
confinement facilities to receive missing DD Forms 2704 immediately will be
incorporated into a revision of AFI 31-205. The estimated date for completion was the
end of July 2002.

      Evaluation Response. The Air Force comments are responsive. When
completed, please provide copies of the relevant revisions to AFI 31-205.



                                            25
       B.2.    The Air Force revise current policies and procedures to require
               confinement facilities to retain victim and witness data during and
               after inmate confinement, and restrict victim and witness data access
               to individuals with a strict need-to-know.

       Air Force Comments. The Air Force concurred and commented that this
requirement was incorporated into AFI 31-205 published in April 2001.

        Evaluation Response. The Air Force comments are not responsive. We note the
current instruction and the March 1997 and June 1999 versions of the same Air Force
instruction required the placement of the victim and witness envelope in the correctional
treatment file (CTF). Our experience during this evaluation demonstrated that the CTF
had broad access by correctional facility staff. Additionally, as required by AFI 31-205,
and validated during our fieldwork, when an inmate was released, the CTF, which
includes the victim witness envelope, was sent to the inmate’s military unit. The Air
Force should reconsider the assertion that AFI 31-205 requires confinement facilities to
retain victim and witness data during and after inmate confinement, and to restrict victim
and witness data access to individuals with a strict need-to-know. In commenting on the
final report, if the Air Force revises current policies and procedures to require
confinement facilities to retain victim and witness data during and after inmate
confinement, and restrict victim and witness data access to individuals with a strict need-
to-know, provide an estimated completion date and copies of revised policies.




                                            26
Appendix A. Background on Federal Sex
            Offender Registration

(Extracted from U.S. Department of Justice, Office of Justice Programs, Proceedings of
a Bureau of Justice Statistics and The National Consortium for Justice Information and
Statistics conference, April 1998, vii-viii.)

        In October 1989, 11-year-old Jacob Wetterling bicycled with his brother and a
friend to a store near his St. Joseph, Minnesota, home to rent a video. Ten months later,
Houston real estate agent Pam Lychner prepared to show a vacant residence to a
prospective buyer. In July 1994, Megan Kanka, age 7, accepted an invitation from a
neighbor in Hamilton Township, New Jersey, to see his new puppy. As they went about
their daily routines, Wetterling, Lychner and Kanka could not have known they were
fated to become crime victims, or that their names would ultimately become synonymous
with Federal laws mandating more stringent control of sex offenders.

         Wetterling’s ride home was interrupted by an armed man wearing a nylon mask
who ordered the boy’s companions to flee. Wetterling has not been seen since.
Investigators later learned that, unbeknownst to local law enforcement, halfway houses in
St. Joseph housed sex offenders after their release from prison. Wetterling’s
disappearance transformed his mother, Patty, a self-described “stay-at-home mom,” into
a tireless advocate for missing children. She was appointed to a governor’s task force
that recommended stronger sex offender registration requirements in Minnesota.

        The more stringent requirements were subsequently implemented on a national
basis when the Jacob Wetterling Crimes Against Children and Sexually Violent Offender
Registration Act1 was included in the Federal Violent Crime Control and Law
Enforcement Act of 1994.2 The Wetterling Act required States to establish stringent
registration programs for sex offenders — including lifelong registration for a subclass of
offenders classified as sexual predators — by September 1997.

        Awaiting Lychner at the vacant house was a twice-convicted felon who brutally
assaulted the former flight attendant. Her life was saved when her husband arrived on the
scene and interrupted the attack. The experience motivated Lychner to form Justice for
All, a Texas-based victims’ rights advocacy group that lobbies for tougher sentences for
violent criminals.

       U.S. Senators Phil Gramm of Texas and Joseph Biden of Delaware credited
Lychner with helping to craft the language of a bill that established a national computer
database to track sex offenders. The bill was named the Pam Lychner Sexual Offender
Tracking and Identification Act of 19963 to honor the activist after she and her two
daughters were killed in the explosion of TWA Flight 800 off the coast of Long Island,

1
  Pub. L. 103-322, Title XVII, §170101, 108 Stat. 2038, codified, as amended at 42 U.S.C.§14071.
2
  Pub. L. 103-322, 108 Stat. 1796, codified, as amended, in scattered sections of Titles 18, 26 and 42.
3
  Pub. L. 104-236, §2(a), 110 Stat. 3093, codified, as amended, at 42 U.S.C. § 14072.
                                                   A-1
New York, in July 1996. The Lychner Act amended the Violent Crime Control and Law
Enforcement Act of 1994, to require the Federal Bureau of Investigation (FBI) to
establish the national offender database and to handle sex offender registration and
notification in States unable to maintain “minimally sufficient” programs of their own.
The Lychner Act compliance deadline was October 1999.

        The neighbor who invited Megan Kanka to see his puppy was a twice-convicted
pedophile who raped and murdered her, then dumped her body in a nearby park.
Megan’s grieving parents said they never would have let their daughter travel their
neighborhood freely if they had been alerted to the presence of a convicted sex offender
living across the street from their residence. Congress passed the Federal version of
“Megan’s Law,”4 another amendment to the Violent Crime Control and Law
Enforcement Act of 1994, in 1996. It required States to establish some form of
community notification by September 1997.

        The process of instituting a nationally consistent policy to control sex offenders is
complex. One of the greatest challenges is the sheer magnitude of the problem. Recent
figures show that, nationally, approximately 234,000 sex offenders are under the care,
custody or control of corrections agencies — 60 percent under conditional supervision in
the community — on any given day.

        The FBI, directed by the Lychner Act to register sex offenders and to notify
communities in States lacking “minimally sufficient” programs, used fugitive statistics
from four California field divisions (San Diego, Los Angeles, San Francisco and
Sacramento) and information on noncompliant sex offenders from the Departments of
Justice and State to study the assignment’s impact on its resources. The study found that,
if the FBI were responsible for administering California’s program, every agent working
in the four divisions at the time of the study would have to be assigned full-time just to
track down sex offenders who failed to register as required.

        There are thorny legal issues to consider as well. Individuals subject to
registration and notification programs have challenged the statutes on constitutional
grounds, citing excessive punishment, lack of due process and invasion of privacy. The
courts have generally upheld registration requirements, but several courts have struck
down notification programs. Many observers believe the notification controversy will
not be resolved until the U.S. Supreme Court settles the matter.

        Designing an effective sex offender registration and notification program that can
withstand legal challenges while meeting the needs of the community is difficult,
especially within the relatively short time periods for compliance spelled out in the
Federal statutes. States that failed to meet the statutes’ compliance deadlines risked
losing10 percent of their appropriation from the Federal Edward Byrne Memorial State
and Local Law Enforcement Assistance Program, which provides funding for State and
local crime eradication efforts. The statutes allowed States experiencing difficulty in
establishing programs to apply for a 2 - year, “good-faith-effort” deadline extension.
Forty-two of the 56 States and territories covered by the statutes sought the extensions.

4
    Pub. L. No. 104-145, §2, 110 Stat. 1345, codified at 42 U.S.C. § 14071(e).
                                                       A-2
Appendix B. Conviction Offenses Under the
            Uniform Code Of Military Justice1
    UCMJ       DIBRS*                                    UCMJ Offense
    Article     Code
120            120A        Rape
120            120B1/2     Carnal Knowledge
125            125A        Forcible Sodomy
125            125B1/2     Sodomy of a Minor
133            133D        Conduct Unbecoming an Officer (involving any sexually violent offense
                           or a criminal offense of a sexual nature against a Minor or kidnapping of
                           a Minor)
134            134-B6      Prostitution Involving a Minor
134            134-C1      Indecent Assault
134            134-C4      Assault with Intent to Commit Rape
134            134-C6      Assault with Intent to Commit Sodomy
134            134-R1      Indecent Act with a Minor
134            134-R3      Indecent Language to a Minor
134            134-S1      Kidnapping of a Minor (by a person not parent)
134            134-Z       Pornography Involving a Minor
134            134-Z       Conduct Prejudicial to Good Order and Discipline (involving any
                           sexually violent offense or a criminal offense of a sexual nature against a
                           Minor or kidnapping of a Minor)
134            134-Y2      Assimilative Crime Conviction (of a sexually violent offense or a
                           criminal offense of a sexual nature against a Minor or kidnapping of a
                           Minor)
80                         Attempt (to commit any of the foregoing)
81                         Conspiracy (to commit any of the foregoing)
82             082-a       Solicitation (to commit any of the foregoing)
*
     Defense Incident-Based Reporting System




1
     DoDI 1325.7, “Administration of Military Correctional Facilities and Clemency and Parole
     Authority,” July 17, 2001, Enclosure 27.


                                                   B-1
Appendix C. Sex Offender Notification Process at
            Correctional Facilities (DoDI 1325.7)




                        C-1
Appendix D. DoD vs. Service Policy on Sex
            Offender Notifications
        DoD 1                 Air Force2                Navy 3          Marine Corps4              Army5
On confinement,
check if ever
convicted of covered
offense
(6.18.5.3)*
                                                 Confining
Before release, check                            offense from
                           Confining                                   Confining             Confining
if ever convicted of                             Special or
                           offense only                                offense only          offense only
covered offense                                  General Courts-
                           (3.2.6.5.1)                                 (3(A))                (8-27)
(6.18.6.1)                                       Martial
                                                 (5a)
If covered-offense
conviction, advise
                           Confining             Confining             Confining             Confining
prisoner:
                           offense only          offense only          offense only          offense only
  - State registration
                           (3.2.6.5.1)           (5a)                  (3(A))                (8-27)
requirements
(6.18.5.1&3)
  - All States where
lives, works, attends
school, or has             (3.2.6.5.1)           (5b)                  3(A)
vocation
(6.18.5.1)
  - Obtain prisoner
acknowledgment of
                           (3.2.6.5.1.1)         (5b)                  (3(B))
requirements
(6.18.5.2)
  - File acknowledge-
ment in prisoner’s
                           (3.2.6.5.1.2)         (5b)                  (3(B))
permanent file
(6.18.5.2)




1
    DoDI 1325.7.
2
    AFI 31-205. Note: When a person is convicted at courts-martial but not sentenced to confinement or will
    not return to confinement due to credit for pretrial confinement, AFI 51-201, “Administration of Military
    Justice,” November 2, 1999, requires staff judge advocate to notify local Air Force security forces unit to
    initiate required sex offender notifications.
3
    NAVPERSCOM Memorandum, 5800 Ser 84/078, “Notice of Release of Military Offenders Convicted of
    Sex Offenses or Crimes Against Minors,” April 28, 2000.
4
    MARADMIN 054/99, “Notice of Release of Military Offenders Convicted of Sex Offenses and Crimes
    Against Minors.”
5
    AR 190-47.


                                                        D-1
       DoD 1                 Air Force2            Navy 3        Marine Corps4           Army5
5 days before final
release, separate
                          (3.2.6.5.2)       (5c)                (3(C))
notices to:
(6.18.6.1.3)*
  - Chief law
enforcement officer
in State where            (3.2.6.5.2.1)     (5c(1))             (3(C))
expected residence
(6.18.6.1)
  - Chief law
enforcement officer
in local jurisdiction     X                 X                   X
where expected            (3.2.6.5.2.2)     (5c(2))             (3(C))
residence.
(6.18.6.1)
  - State or local
agency responsible
for receiving sex
offender registrations    (3.2.6.5.2.3)     (5c(3))             (3(C))
in area where
expected residence
(6.18.6.1)
Notices shall include:    (3.2.6.5.1.1)     (5d)                (3(C))
  - Intended residence
  - Subject to
registration
  - Criminal history
  - Offense requiring
registration
  - Release restriction
/conditions
(6.18.6.1.2)
Establish system to
verify notifications
for convicted and
confined, not
confined, no longer
confined
(6.18.6.1.4)
*The parenthetical entries represent the paragraph citation in the referenced guidance




                                                   D-2
Appendix E. DoD vs. Service Notification
            Policy—Inmate Status Changes
DoD1                    Army               Navy              Air Force         Marine Corps
Service Secretary
establish oversight
procedures to
                        (18.6b-d)2         (9b(6))4                            (9b(6))4
ensure capability to                                         (7.17)6
                        (13-1)3            (8307)5                             (8307)5
deliver required
services
(5.2.10)
Upon sentence to
confine, trial
counsel send DD
Form 2704, to
                        (18.14b(2))2       (7d(2))7          (7.13.2)6         (6006.7n)8
confinement facility
(CF), and any
victim/witness
(6.4.2)
Upon post-trial
confinement, obtain
DD Form 2704 to         (18.25a)2
                                                             (7.13.4)6
determine               (13.2a-b)3         (5a)9                               (6006.3b)8
                                                             (3.2.2)10
notification
requirements.
(6.5.1)
Notify inmate status
changes via DD
Form 2705 for:
  - clemency or
                                           (Encl 9)7         (7.13.6)6
parole hearings         (18.25b-e)2                                            (8307)5
                                           (5e(1-7))9        (3.2.6)10
  - transfer, escape,
return
  - release, or death
(6.5.4)




1
     DoDI 1030.2, “Victim and Witness Assistance Procedures,” December 23, 1994.
2
     AR 27-10, “Military Justice,” August 20 1999.
3
     AR 190-47, “The Army Corrections System,” August 15, 1996.
4
     SECNAVINST 5800.11A, “Victim and Witness Assistance Program,” June 16, 1995.
5
     SECNAVINST 1640.9B, “Department of the Navy Corrections Manual,” December 2, 1996.
6
     AFI 51-201, “”Administration of Military Justice,” November 2, 1999.
7
     OPNAVINST 5800.7, “Victim and Witness Assistance Program,” April 30, 1996.
8
     MCO P5800.16A, “Marine Corps Manual for Legal Administration,” August 231, 1999.
9
     BUPERSINST 5800.3, “Victim and Witness Assistance Program,” June 5, 2000.
10
     AFI 31-205, “The Air Force Corrections System,” April 9, 2001.


                                                   E-1
DoD1                 Army         Navy         Air Force   Marine Corps
Do not allow
confinee access to
                     18.14b(3)2   (Encl 9)7
DD Forms 2704 or                               (3.2.2)10   (8307)5
                     (13.2c)3     (4)9
2705
(6.4.2)
Report annually to
                     (18.26e)2    (8)7         (7.18)6
OUSD(P&R)                                                  (6007.1)8
                     (13.7)3      (9)9         (3.3)10
(6.6.1)




                                         E-2
Appendix F. Victim & Witness Assistance Process at
            Correctional Facilities (DoDI 1030.2)




                        F-1
Appendix G. DD Form 2704




                   G-1
G-2
Appendix H. Organizations Visited or Contacted


Office of the Secretary of Defense
Office of Legal Policy, Deputy Assistant Secretary of Defense (Program Integration)


Department of the Army
Headquarters, Department of the Army, Washington, DC
Ft. Drum, New York
Ft. Irwin, California
Ft. Leavenworth, Kansas
Ft. Knox, Kentucky
Ft. Lewis, Washington
Ft. Sill, Oklahoma
Ft. Wainwright, Alaska


Department of the Navy
Headquarters, Navy Personnel Command, Millington, Tennessee
NWS Charleston, South Carolina
MCAS Miramar, California
NS Bremerton, Washington
NS Norfolk, Virginia
NTC Great Lakes, Illinois


Department of the Air Force
Headquarters, Air Force Security Forces, Lackland AFB, Texas
Davis Monthan AFB, Arizona
Edwards AFB, California
Eglin AFB, Florida
Ellsworth AFB, South Dakota
Elmendorf AFB, Alaska
Grand Forks AFB, North Dakota
Hill AFB, Utah
Holloman AFB, New Mexico

                                          H-1
Keesler AFB, Mississippi
Lackland AFB, Texas
Lakenheath AB, England
Little Rock AFB, Arkansas
Luke AFB, Arizona
Minot AFB, North Dakota
Offutt AFB, Nebraska
Osan AB, Korea
Shaw AFB, South Carolina
Whiteman AFB, Missouri


Marine Corps
Headquarters, Marine Corps, Washington, DC
Camp Hansen, Okinawa Japan
Camp Lejeune, North Carolina
Camp Pendleton, California
MCAS Iwakuni, Japan
Quantico, Virginia


Non-Defense Organizations
Arizona State Prison, Florence, Arizona
Geary County Detention Center, Kansas
District Attorney’s Office, Sandoval County, New Mexico




                                        H-2
Appendix I. Memoranda to Military Department
            Judge Advocates General




                     I-1
I-2
I-3
I-4
Appendix J. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Comptroller (Program/Budget), Office of the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer*
  Deputy Chief Financial Officer, Accounting Policy Directorate, Office of the Under
     Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense (Personnel and Readiness)*
  Deputy Under Secretary of Defense (Program Integration), Office of the Under
     Secretary of Defense (Personnel and Readiness)*
General Counsel for the Department of Defense*
  Deputy General Counsel (Personnel and Health Policy)*


Department of the Army
Assistant Secretary of the Army for Manpower and Reserve Affairs
Auditor General, Department of the Army*
Inspector General, Department of the Army*
Headquarters, Department of the Army, Office of G3 (DAMO-ODL)*
The Judge Advocate General*


Department of the Navy
Assistant Secretary of the Navy for Manpower and Reserve Affairs
Naval Inspector General*
Naval Audit Service
The Judge Advocate General*
Headquarters, Navy Personnel Command (PERS-84)*


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)*
Auditor General, Department of the Air Force
Inspector General, Department of the Air Force*
The Judge Advocate General*

*Recipient of draft report
                                          J-1
Headquarters, Air Force Security Forces Center*


Marine Corps
The Staff Judge Advocate to the Commandant of the Marine Corps*
Inspector General of the Marine Corps
Headquarters, Marine Corps, Deputy Chief of Staff for Plans, Polices and Operation,
   Security and Law Enforcement Branch*


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Intelligence Agency
Director, National Security Agency
Inspector General, National Security Agency
Commandant, Defense Acquisition University


Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




*Recipient of draft report
                                          J-2
                                  USD(P&R) Comments




Appendix K. Management Comments




                   K-1
Army Comments




                K-2
      Army Comments




K-3
Army Comments




                K-4
      Army Comments




K-5
Army Comments




                K-6
      Navy Comments




K-7
Navy Comments




                K-8
      Navy Comments




K-9
Navy Comments




                K-10
       Navy Comments




K-11
Navy Comments




                K-12
       Navy Comments




K-13
Navy Comments




                K-14
       Navy Comments




K-15
Navy Comments




                K-16
       Navy Comments




K-17
Air Force Comments




                     K-18
       Air Force Comments




K-19
Air Force Comments




                     K-20
       Air Force Comments




K-21
                       Evaluation Team Members
Deputy Assistant Inspector General for Criminal Investigative Policy and Oversight,
Office of the Assistant Inspector General for Investigations, Office of the Inspector
General, Department of Defense.


John J. Perryman, Project Manager

Major Jim Burak, Evaluator

Captain Mike Florio, Evaluator

Love Silverthorn, Investigative Review Specialist

Randy Knight, Criminal Investigator
